                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I 03110060
                                                                                11           Page 1 of 1



        A proactive review of various Conference Grants identified two specific concerns regarding an
        NSF ward' to a universitg to support a conference they were sponsoring3. First, althou& the
        Grant was awarded in September of 2001, at the time of this review the conference had not yet
        been held. The preliminary review did identify that two no-cost extensions had been approved
        on this award with the most current one schedule to expire in August of 2004.

        The second issue identified involved one of the experts identified in the initial proposal as a
        conference participant and speaker. This individual is now the Program ~ i r e c t o at
                                                                                             r ~NSF and
        hisher participation may have created a conflict of interest.

        We initially requested additional information Erom the university and received their response a
        few weeks later. This response confirmed that the conference had been held and that the NSF
        Program Director was not a participant nor attendee of the conference.

        The university also submitted an accounting of the expenses for the conference and our review of
        these documents found the expenses and categories to be consistent with the initial budget
        proposal.

        It is our conclusion that the university properly requested the time extension and had
        administered the grant properly. Additionally there is no conflict of interest with the NSF
        Program Director.                                                                           I




        Accordingly, this case is closed.




SF OIG Form 2 (1 1/02)                                                                              11
